No. 20-1244
IN THE

Supreme Court of the United States
BARBARA TULLY, ET AL.,
Petitioners,
v.
PAUL OKESON, ET AL.,
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5,983
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 8, 2021.

/s/ Jessica Ring Amunson
Jessica Ring Amunson

